Appendix A

Case: 20-16888, 02/11/2021, ID: 12001331, DktEntry: 14, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 11 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

TERENCE K. DICKINSON,
Plaintiff-Appellant,
v.

No.

20-16888

D.C. No.
2:19-cv-01978-JAD-BNW
District of Nevada,
Las Vegas

HSBC BANK USA, N.A.; et al.
ORDER
Defendants-Appellees.
Before: CANBY, GRABER, and FRIEDLAND, Circuit Judges.
The requests for judicial notice (Docket Entry Nos. 7 and 11) are granted.
Upon a review of the record and the response to the October 26, 2020 order
to show cause, we conclude this appeal is frivolous. We therefore deny appellant’s
motion to proceed in forma pauperis (Docket Entry No. 5), see 28 U.S.C. §
1915(a), and dismiss this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2)
(court shall dismiss case at any time, if court determines it is frivolous or
malicious).
DISMISSED

LAB/MOATT

Case 2:19-cv-01978-JAD-BNW Document 21 Filed 09/03/20 Page 1 of 10

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3

Terence K. Dickinson,

4

Plaintiff

5

v.

6

HSBC Bank USA N.A.; Renaissance Home
Equity Loans Trust 2006-3; Ocwen Loan
Servicing LLC; Does I-X, inclusive; Roes
Corp. I-X, inclusive,

7

Case No.: 2:19-cv-01978-JAD-BNW

Order Converting Defendants’ Motion to
Dismiss into a Motion for Summary
Judgment and Granting Summary
Judgment in Favor of Defendants
[ECFNo. 13]

8
Defendants
9
10

Terence K. Dickinson alleges that HSBC Bank USA N.A., Renaissance Home Equity

11 Loans Trust 2006-3, and Ocwen Loan Servicing LLC violated his constitutional rights by
12 wrongfully foreclosing on his Las Vegas home. This is not the first time that Dickinson has sued
13 these companies for this foreclosure. In December 2017, a Nevada state court ruled against
14 Dickinson in a nearly identical suit to quiet title on this residence, dismissing his claims with
15 prejudice. The Nevada court of appeals affirmed the order, and the Nevada Supreme Court
16 denied Dickinson’s petition for review. Now, HSBC Bank, as Indenture Trustee for Renaissance
17 Home and Ocwen, moves to dismiss Dickinson’s federal claims under a theory of res judicata.
18 Both parties ask me to consider documentary evidence outside the pleadings in my ruling on
19 HSBC Bank’s motion to dismiss. So, I convert HSBC Bank’s motion into a summary-judgment
20 motion and grant it because, based on undisputed facts, Dickinson’s claims are precluded as a
21 matter of law.
22
23

Case 2:19-cv-01978-JAD-BNW Document 21 Filed 09/03/20 Page 2 of 10

1

Background

2 A.

The underlying dispute

3

This decade-long clash centers on a single residence in Las Vegas, Nevada.1 In 2006,

4 Dickinson signed and executed a deed of trust on 3424 Sioux Way,2 which was later assigned to
5 HSBC Bank as indenture trustee for Renaissance Home and Ocwen.3 Dickinson did not make
6 payments on the mortgage4 and, in November 2015, HSBC Bank recorded a notice of default
7 and election to sell the property under the deed of trust.5 In May 2016, HSBC Bank recorded a
8 notice of trustee’s sale6 and, on July 11, 2016, held a trustee’s sale and purchased the property
9 for roughly $210,000.7
10 B.

The prior, state-court action

11

On March 17, 2017, exactly 149 days after the foreclosure sale, Dickinson filed suit in

12 Nevada state court against HSBC Bank, Renaissance Home, Ocwen, and Raymond Stibor,
13 seeking to quiet title on the property and asserting a cause of action for tortious breach of the
14 implied covenant of quiet enjoyment.8 Dickinson claimed that defendants “fraudulently alleged
15
16

l

ECF No. 6 at

1-3 (complaint); ECF No. 20 at 3 (sur-reply).

17 2 ECF No. 14, 14-1 (request for judicial notice and exhibits); ECF No. 20 at 3.
18

3 ECF No. 14-2.

4 See ECF No. 13 at 3 (motion to dismiss); ECF No. 14-3 at 3; ECF No. 20 at 4. Neither party
19 seemingly disputes that Dickinson did not make payments on the mortgage. However,
Dickinson claims that he was not required to make payments because he cancelled the mortgage
20 within three days of signing it, and he attaches a copy of his signed “right of cancellation” to his
sur-reply. See ECF Nos. 19, 20 at 3. Dickinson does not indicate whether and how HSBC Bank
21 received this cancellation notice. Regardless, this factual dispute is irrelevant to my decision.
5
ECF No. 14-3.
22
6 ECF No. 14-4.
23 7 ECF No. 6 at If 3; ECF No. 14-5.
8

ECF No. 14-6 (state court complaint).
2

Case 2:19-cv-01978-JAD-BNW Document 21 Filed 09/03/20 Page 3 of 10

1 [that he] was behind in payments,” wrongfully foreclosed on the property, “tied up the [pjroperty
2 in litigation” for a decade, and failed to provide and serve proper notice of the foreclosure.9
3 Dickinson further alleged that a “securitization audit” provided by Bank of America confirmed
4 that he’d paid his mortgage obligations and so “[a]ny and all clouds on the title must be
5 removed. 5510
6

In November 2017, the state court dismissed Dickinson’s complaint with prejudice,

7 determining that Dickinson did not file his lawsuit within the 90-day limitations period
8 prescribed by Nevada statute.11 The court of appeals expressly reviewed the dismissal order as
9 an “appeal[] from the final judgment” and considered whether Dickinson had the chance to
10 adequately argue that “he satisfied the loan at issue,” the statutory limitations period did not
11 apply, and he did not receive proper notice of the foreclosure.12 After determining that these
12 arguments had been waived or were irrelevant, the appellate court affirmed the trial court’s
13 order13 and the Nevada Supreme Court denied Dickinson’s petition for review.14
14 C.

The current action

15

Dickinson’s federal complaint now seeks constitutional remedies for the exact same

16 conduct committed by the exact same defendants.15 As before, Dickinson alleges that HSBC
17 Bank, Renaissance Home, and Ocwen “fraudulently alleged [that he] was behind in payments,”
18
19
9 ECF No. 14-6 at H 2, 4, 6.
20 ]0Id. at 17.
21 11 ECF No. 14-7 (citing NRS 107.080(6)) (dismissal order).
12 ECF No. 14-8 at 2, n.2 (appeal order).
22
13 Id. at 3-4.
23 14 ECF No. 18, 18-1 (reply and exhibit).
15 ECF No. 6.
3

Case 2:19-cv-01978-JAD-BNW Document 21

Filed 09/03/20 Page 4 of 10

1 wrongfully foreclosed on the property, “tied up the [pjroperty in litigation” for a decade, and
2 failed to provide and serve proper notice of the foreclosure and trustee’s sale, and that Dickinson
3 obtained a “securitization audit” confirming he’d paid his mortgage obligations on the
4 property.16 In fact, the state-court and federal-court complaints are substantively identical, aside

5 from the omission of defendant Stibor, the elimination of Dickinson’s state-law causes of action,
6 and the addition of Dickinson’s constitutional causes of action.17 HSBC Bank moves to dismiss
7 the complaint as insufficiently plead and precluded by the state-court order.18

8

Discussion

9 A.
10

Conversion from a motion to dismiss into a summary-judgment motion
HSBC Bank argues that the dismissal of Dickinson’s state court action precludes this one

11 as a matter of law and relies on evidence attached to its motion to dismiss.19 A true Federal Rule
12 12(b)(6) motion to dismiss tests the sufficiency of the complaint on its face. If “matters outside
13 the pleadings are presented to and not excluded by the court, the motion must be treated as one
14 for summary judgment under Rule 56.”20 Conversion to summary judgment is at the discretion

15 of the court, which must take some affirmative action before effecting conversion.21 Where the
16 “non-moving party is appearing pro se, the notice requirements of Rule 56(c) must be strictly
17
18
19
20 16 Compare ECF No. 6 at

21 17 See ECF No. 6 at
18 ECF No. 13.
22

1,2, 4, 6, 7, with ECF No. 14-6 at

8-12, 14-21.

19 Id.; see also ECF No. 14, 14-1-8.

23 20 Fed. R. Civ. P. 12(d).

21 Swedberg v. Marotzke, 339 F.3d 1139, 1144 (9th Cir. 2003).
4

1, 2, 4, 6, 7.

Case 2:19-cv-01978-JAD-BNW Document 21 Filed 09/03/20 Page 5 of 10

1 adhered to when a motion to dismiss under Rule 12(b)(6) is converted into one for summary
2 judgment.”22
3

Both parties have submitted evidence relevant to this matter attached to and outside the

4 bounds of the complaint.23 After HSBC Bank filed its motion, I provided the parties explicit and
5 timely notice under Klingele v. Eikenberry24 and Rand v. Rowland25 that HSBC Bank’s motion
6 may be converted into one for summary judgment.26 After receiving this notice, both parties
7 submitted additional evidence for my consideration. HSBC Bank attached a Nevada Supreme
8 Court decision to its reply briefing, which could and should have been included with its initial
9 motion.27 Likewise, Dickinson filed an improper sur-reply without leave of court that attached
10 multiple letter envelopes and his purported “right of cancellation” document. 28 Because both
11 HSBC Bank and Dickinson have had the opportunity to submit additional evidence in their reply
12 and sur-reply, respectively, I consider these documents29 and exercise my discretion under
13 Federal Rule 12(d) to convert this motion to dismiss into one for summary judgment.
14
15

22 Garaux v. Pulley, 739 F.2d 437, 439^10 (9th Cir. 1984).
23 ECFNos. 6, 14, 14-1-8, 18, 18-1, 19, 20.

16 24 Klingele v. Eikenberry, 849 F.2d 409 (9th Cir. 1988).
17 25 Randv. Rowland, 154 F.3d 952 (9th Cir. 1998).
26 ECF No. 15 (minute order in chambers regarding the requirements of Klingele v. Eikenberry
18 and Rand v. Rowland).
19 27 ECF No. 18-1. New evidence submitted with a reply brief is generally improper. See Tovar v.
U.S. Postal Serv., 3 F.3d 1271, 1273 n.3 (9th Cir. 1993) (reasoning that new evidence and
20 information in a reply brief deprives an opposing party of an opportunity to respond).
28 ECF Nos. 19, 20. “Sur[-]replies are not permitted without leave of court.” L.R. 7-2(b).
21

29 Provenz v. Miller, 102 F.3d 1478, 1483 (9th Cir. 1996) (holding that “[wjhere new evidence is
presented in a reply to a motion for summary judgment, the district court should not consider the
22
new evidence without giving the [non-]movant an opportunity to respond” and considering
“evidence submitted by defendants in their reply and the evidence submitted by plaintiffs in their
23
supplemental declaration”) (quoting Black v. TIC Inv. Corp., 900 F.2d 112, 116 (7th Cir. 1990))
(alteration in original).
5

Case 2:19-cv-01978-JAD-BNW Document 21 Filed 09/03/20 Page 6 of 10

1

Even were HSBC Bank’s motion not converted into one for summary judgment,

2 dismissal with prejudice under Rule 12(b)(6) would still be warranted. The Ninth Circuit has
3 held that when deciding a motion to dismiss, a court may consider both the complaint and
4 documents subject to judicial notice, which includes court records, orders, and files.30 Here,
5 HSBC Bank has provided the state-court complaint and state-court orders that demonstrate why
6 Dickinson’s claims are precluded in this court.31 Dickinson does not challenge the authenticity,
7 accuracy, or propriety of these documents, so I consider them in their entirety.32
8 B.

Summary-judgment standard

9

Summary judgment is appropriate when the pleadings and admissible evidence “show

10 there is no genuine issue as to any material fact and that the movant is entitled to judgment as a
11 matter of law. ”33 When considering summary judgment, the court views all facts and draws all
12 inferences in the light most favorable to the nonmoving party.34 If reasonable minds could differ
13 on material facts, summary judgment is inappropriate because its purpose is to avoid unnecessary
14 trials when the facts are undisputed, and the case must then proceed to the trier of fact.35 If the
15
16 30 See Emrich v. Touche Ross & Co., 846 F.2d 1190,1198 (9th Cir. 1988) (taking judicial notice
of the proceedings and determinations in related and prior district court action without
17 converting motion to dismiss into motion for summary judgment); MGIC Indent. Corp. v.
Weisman, 803 F.2d 500, 504 (9th Cir. 1986) (taking judicial notice of a motion to dismiss and
18 supporting memorandum filed in a related litigation made part of the record by appellant).
19 31 See ECFNos. 14-7, 14-8, 18-1.
32 See Branch v. Tunnell, 14 F.3d 449, 454 (9th Cir. 1994) (considering documents that were not
20 physically attached to the pleading, which were properly subject to judicial notice and “whose
authenticity no party question[ed]”), overruled on other grounds Galbraith v. County ofSanta
21 Clara, 307 F.3d 1119 (9th Cir. 2002).
22 33 See Celotex Corp. v. Catrett, All U.S. 317, 330 (1986) (citing Fed. R. Civ. P. 56(c)).
34 Kaiser Cement Corp. v. Fishback & Moore, Inc., 793 F.2d 1100, 1103 (9th Cir. 1986).
23
35 Warren v. City of Carlsbad, 58 F.3d 439, 441 (9th Cir. 1995); see also Nw. Motorcycle Ass ’n
v. U.S. Dep’t ofAgric., 18 F.3d 1468, 1471 (9th Cir. 1994).
6

Case 2:19-cv-01978-JAD-BNW Document 21 Filed 09/03/20 Page 7 of 10

1 moving party satisfies Rule 56 by demonstrating the absence of any genuine issue of material
2 fact, the burden shifts to the party resisting summary judgment to “set forth specific facts
3 showing that there is a genuine issue for trial. 5’36 « To defeat summary judgment, the nonmoving
4 party must produce evidence of a genuine dispute of material fact that could satisfy its burden at
5 trial.”37
6 C.

Claim preclusion bars Dickinson’s complaint as a matter of law.

7

“The preclusive effect of a judgment includes both claim preclusion and issue

8 preclusion.”38 Unlike issue preclusion, claim preclusion “is a broad doctrine that bars bringing
9 claims that were previously litigated as well as some claims that were never before
10 adjudicated.”39 When the prior action is litigated in state court and results in a state-court
11 judgment, federal courts must apply the preclusion law of the state in which the judgment was
12 rendered.40 Claims for constitutional violations, including claims under 42 U.S.C. § 1983, “are
13 subject to claim preclusion even if the litigants did not actually litigate the federal claim in state
14 court. 5541 Claim preclusion “does not apply where the party against whom an earlier court
15 decision is asserted did not have a full and fair opportunity to litigate the claim,” but instead
16
17
18

36 Anderson v. Liberty Lobby, Inc., All U.S. 242, 256 (1986); Celotex, All U.S. at 323.
37 Sonner v. Schwabe N. Am., Inc., 911 F.3d 989, 992 (9th Cir. 2018).

19 38 Scafidi v. Las Vegas Metro. Police Dep’t., 966 F.3d 960, 963 (9th Cir. 2020) (citing Taylor v.
Sturgell, 553 U.S. 880, 892 (2008)).
20
39 Holcombe v. Hosmer, All F.3d 1094, 1097 (9th Cir. 2007) (quoting Clements v. Airport Auth.
21 of Washoe Cnty, 69 F.3d 321, 327 (9th Cir. 1995)) (internal quotation marks omitted).
40 Migra v. Warren City Sch. Dist. Bd. ofEduc., 465 U.S. 75, 81 (1984) (“It is now settled that a
22 federal court must give to a state-court judgment the same preclusive effect as would be given
that judgment under the law of the State in which the judgment was rendered.”); see also
23 Rodriguez v. City ofSan Jose, 930 F.3d 1123, 1130 (9th Cir. 2019).
41 Holcombe, All F.3d at 1097 (citing Migra, 465 U.S. at 83-85).
7

Case 2:19-cv-01978-JAD-BNW Document 21 Filed 09/03/20 Page 8 of 10

1 prevents the “relitigation” of federal issues “after a full and fair hearing in a state court simply
2 because the state court’s decision may have been erroneous. ”42
3

Because Dickinson’s prior complaint was decided in Nevada state court, I apply

4 Nevada’s preclusion law to determine whether Dickinson’s constitutional claims may proceed.43
5 Under Nevada law, claim preclusion applies where: “(1) the same parties or their privies are
6 involved in both cases, (2) a valid final judgment has been entered, and (3) ‘the subsequent
7 action is based on the same claims or any part of them that were or could have been brought in
8 the first place. ■>”44 Each element has been satisfied here.
9

First, and as evident from the pleadings, the parties are identical.45 Dickinson’s omission

10 of prior-defendant Stibor46 does not affect this conclusion. Second, the judgment that Dickinson
11 received in state court was a final “adjudication on the merits,” affirmed in the appellate court.47
12
42 Allen v. McCurry, 449 U.S. 90, 101 (1980) (determining that claim preclusion applies to
13 § 1983 claims relitigated after adverse state-court criminal proceedings).
14 43 See Migra, 465 at 84. As HSBC Bank correctly points out, the Ninth Circuit has held that “a
litigant complaining of a violation of a constitutional right does not have a direct cause of action
15 under the United States Constitution but must utilize 42 U.S.C. § 1983.” Arpin v. Santa Clara
Valley Transp. Agency, 261 F.3d 912, 925 (9th Cir. 2001) (citation omitted). So, I construe
Dickinson’s
constitutional claims as though they were brought “under the umbrella of § 1983.”
16
Bank ofLake Tahoe v. Bank of America, 318 F.3d 914, 917 (9th Cir. 2003) (citation omitted).
17 44 Alcantara ex rel. Alcantara v. Wal-Mart Stores, Inc., 321 P.3d 912, 915 (Nev. 2014) (quoting
Five Star Cap. Corp. v. Ruby, 194 P.3d 709, 713 (Nev. 2008)). The Nevada Supreme Court
18 modified this test slightly in the context of nonmutual claim preclusion in Weddell v. Sharp, 350
P.3d 80, 85 (Nev. 2015), permitting defendants to seek claim preclusion when they should have
19 been included as a defendant in the earlier suit and the plaintiff fails to provide a “good reason”
for not having done so.
20
45 Compare ECF No. 6, with ECF No. 14-6.
21 46 ECF No. 16 at 8 (opposition).
47 ECF Nos. 14-7, 14-8. See Five Star Cap. Corp, 194 P.3d at 715; see also Bank ofNew York
Mellon v. 7321 Wandering Street Trust, 796 Fed. Appx. 365, 367-68 (9th Cir. 2019) (applying
Nevada law and determining that dismissal of deed of trust holder’s quiet-title action against
23
homeowner’s association was a final judgment and subsequent action was barred by doctrine of
claim preclusion).
22

8

Case 2:19-cv-01978-JAD-BNW Document 21 Filed 09/03/20 Page 9 of 10

1 In fact, and like the final judgment in Nevada’s seminal claim preclusion case, Five Star Capital
2 Corp. v. Ruby, Dickinson’s state-court dismissal was “based on a rule other than NRCP 41” and
3 not subject to any exceptions under that rule.48 And unlike the Five Star Capital determination,
4 Dickinson’s suit was expressly dismissed “with prejudice, »49 Third, and as Dickinson essentially
5 admits in his opposition to HSBC Bank’s motion,50 his constitutional causes of action stem from
6 the exact same set of facts as his prior causes of action seeking to quiet title and for breach of the
7 covenant of quiet enjoyment.51
8

Dickinson implies that this action is not identical to his prior, state-court action because

9 the state court did not decide the “genuine issue” of his case, and cabined its ruling to procedural
10 matters, and because he alleges two new causes of action.52 But these points do not save this
11 case from dismissal. Claim preclusion applies “to all claims that were or could have been raised
12 in the initial case” so long as the second suit “is based on the same set of facts and circumstances
13 as the first suit. 5553 This remains true even when the second suit includes additional causes of
14 action or when the first suit was decided on procedural grounds.54 Not only is this suit based on
15
16

48

Five Star Cap. Corp, 194 P.3d at 715.

49 Compare id. (“Five Star challenges the preclusive effect of the dismissal” by arguing that
17 nothing in the ruling indicates “that the dismissal was with prejudice”), with ECF No. 14-7 at 4
(“Plaintiffs Complaint for Wrongful Foreclosure is hereby DISMISSED with PREJUDICE”).
18
50 ECF No. 16 at 8 (“Defendants allege the facts are the same as prior actions. Facts are facts,
and
do not change. That is true. However, the causes of action have changed . .. ”).
19
51 Compare ECF No. 6, with ECF No. 14-6.
20
52 M; ECF No. 20 at 9.
21 53 Five Star Cap. Corp., 194 P.3d at 713-14; see also Univ. ofNev. v. Tarkanian, 879 P.2d 1180,
1192 (Nev. 1994) (reciting that claim preclusion “embraces all grounds of recovery that were
22 asserted in a suit, as well as those that could have been asserted”).
23

54 Five Star Cap. Corp., 194 P.3d at 715 (reasoning that plaintiffs subsequent claims were
precluded, despite plaintiffs assertion that the first dismissal was “not a decision on the merits”
and plaintiffs inclusion of a new cause of action in his second suit).
9

Case 2:19-cv-01978-JAD-BNW Document 21 Filed 09/03/20 Page 10 of 10

1 the same set of allegations as his prior suit, but Dickinson provides no evidence that he was
2 unable to raise his constitutional claims in Nevada state court or that he did not receive a full and
3 fair adjudication of that case.55 Accordingly, I find that Dickinson’s complaint against these
4 companies is barred by claim preclusion as a matter of law.56
5
6

Conclusion
IT IS THEREFORE ORDERED that HSBC Bank’s motion to dismiss [ECF No. 13] is

7 converted into a motion for summary judgment and GRANTED. Because this order
8 resolves all claims in this action, IT IS FURTHER ORDERED that the Clerk of Court is directed
9 to ENTER FINAL JUDGMENT for the defendants and CLOSE THIS CASE.57
10

Dated: September 3, 2020

11
U.S. District Judge Jennifer A. Dorsey
12
13
14
15
16
17
18
19 55 Weddell, 350 P.3d at 85 (reasoning that the basis for plaintiffs new claims, including his fraud
claims, are identical to his prior complaint and therefore precluded by the prior ruling); see also
20 Allen, 449 U.S. at 101 (1980) (denying subsequent case where plaintiff already had a “full and
fair hearing in a state court”).
21 56 Because I find that Dickinson’s claims are barred by claim preclusion, I need not and do not
resolve whether Dickinson adequately plead that HSBC Bank could be held liable for
22 constitutional violations as a private actor or whether Dickinson’s suit is within the statute of
limitations for § 1983 claims.
23
57 Were I not to convert this motion into one for summary judgment, I would have granted
dismissal with prejudice on the same claim-preclusion basis.
10

Case 2:19-cv-01978-JAD-BNW Document 22 Filed 09/03/20 Page 1 of 1
AO450 (NVD Rev. 2/18) Judgment in a Civil Case

United States District Court
DISTRICT OF NEVADA
Terence K. Dickinson,
JUDGMENT IN A CIVIL CASE
Plaintiff,
v.

Case Number: 2:19-cv-01978-JAD-BNW

HSBC Bank USA N.A.; Renaissance
Home Equity Loans Trust 2006-3; et al.,
Defendants.
Jury Verdict. This action came before the Court for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
Decision by Court. This action came to trial or hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
X

Decision by Court. This action came for consideration before the Court. The issues have been
considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED

that judgment is hereby entered in favor of defendants and against plaintiff dismissing the complaint.

September 3, 2020
Date

DEBRA K. KEMPI
Clerk

/s/ H. Magennis
Deputy Clerk

FILED

UNITED STATES COURT'OF APPEALS

MAR 30 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

TERENCE K. DICKINSON,
Plaintiff-Appellant,
v.

No.

20-16888

D.C. No.
2:19-cv-01978-JAD-BNW
District of Nevada,
Las Vegas

HSBC BANK USA, N.A.; et al.,
ORDER
Defendants-Appellees.
Because the mandate, issued in this case on March 5, 2021, the late motion
for reconsideration (Docket Entry No. 16) of the court’s order dated February 11,
2021, is denied. See 9th Cir. R. 27-10.
This case remains closed.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Lior A. Brinn
Deputy Clerk
Ninth Circuit Rule 27-7

LAB/MOATT

